HHS/OIG-Audit--"Analysis of Selected Data on Community and Migrant Health Centers, (A-04-91-04092)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Analysis of Selected Data on Community and Migrant Health Centers," (A-04-91-04092)
December 13, 1991
Complete
Text of Report is available in PDF format (226 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides certain statistical data to requestors on the operations of Community Health Centers (CHC)
and Migrant Health Centers (MHC). The review showed that 546 CHC and MHC served more than 5.8 million individuals in 1990,
continuing a small but steady increase in the number of users annually. Children aged 14 or below represented 34.6 percent
of the individuals served. Revenues received by the centers increased significantly over the 3 years covered by our review,
with the greatest increases attributable to payments from the Medicaid program and CHC grants.